          FEDERAL HOUSING FINANCE AGENCY
            OFFICE OF INSPECTOR GENERAL



          Evaluation of FHFA’s Role in Negotiating
      Fannie Mae’s and Freddie Mac’s Responsibilities in
        Treasury’s Making Home Affordable Program




Evaluation Report: EVL-2011-003             Dated: August 12, 2011
   Evaluation of FHFA’s Role in Negotiating Fannie Mae’s and Freddie Mac’s Responsibilities in
                          Treasury’s Making Home Affordable Program
               Treasury’s Making Home Affordable Program
Why FHFA-OIG Did This Evaluation    What FHFA-OIG Found
In early 2009, the Federal National Mortgage Association       FHFA-OIG found no evidence that in developing and
(Fannie Mae) and the Federal Home Loan Mortgage                implementing MHA programs Treasury has compromised
Corporation (Freddie Mac) (collectively the Enterprises)       FHFA’s independence as the Enterprises’ conservator and
began participating in the Department of the Treasury’s        regulator. The Emergency Economic Stabilization Act of
(Treasury’s) Making Home Affordable Program (MHA).             2008 (EESA) requires FHFA to coordinate within the federal
One key MHA initiative, the Home Affordable Modification       government in developing and implementing loan modification
Program (HAMP), involves mortgage servicers agreeing to        programs such as HAMP. FHFA has supported HAMP as a
modify mortgage terms (e.g., lower the monthly payment)        means to limit the Enterprises’ credit losses by minimizing
for borrowers facing imminent default or foreclosure.          costly foreclosures. At the same time, FHFA has exhibited
                                                               independence by prohibiting the Enterprises from participating
The Enterprises participate in HAMP and modify loans in
                                                               in other MHA programs that it views as being inconsistent with
their portfolios. They also administer and enforce the
                                                               their financial soundness.
program for other loan servicers as Treasury’s financial
agents under Financial Agency Agreements (FAAs).               However, FHFA did not play an active role in reviewing and
Questions have arisen concerning the Enterprises’              negotiating Treasury’s FAAs with the Enterprises. The FAAs
participation in MHA. Some argue that Treasury has             represented long-term commitments of significant resources
employed the Enterprises to manage the MHA program             at a time when there were substantial concerns about the
in ways that jeopardize their financial interests and has      Enterprises’ financial and operational capacity. Nevertheless,
done so without adequate consultation and coordination         FHFA limited its review to ensuring that the Enterprises were
with the Federal Housing Finance Agency (FHFA),                legally authorized to enter into the FAAs and did not review
potentially compromising its independence as the               their substance. As a consequence, two key terms were left
Enterprises’ conservator and regulator.                        undefined: the scope of the work to be performed by the
                                                               Enterprises, and the terms under which they would be
The FHFA Office of Inspector General (FHFA-OIG)                compensated. Significant problems developed in both of these
initiated this evaluation to assess the relationship between   areas almost from the beginning, requiring FHFA and the
FHFA and Treasury in the context of FHFA’s oversight of        Enterprises to devote substantial time and resources to their
Fannie Mae’s and Freddie Mac’s participation in MHA            resolution. Thus, FHFA-OIG finds that FHFA’s conservatorship
programs.                                                      interests would have been better served if FHFA had played a
                                                               greater role during the negotiation and review of the FAAs.
What FHFA-OIG Recommends                                       In early 2010, Treasury, FHFA, and the Enterprises developed
FHFA-OIG recommends that FHFA engage in negotiations           a new method for reviewing and approving tasks assigned to
with Treasury and the Enterprises to amend the FAAs by         the Enterprises under the FAAs. It represents a significant
incorporating a specific dispute resolution process under      improvement over the process contained in the initial FAAs.
which the parties may discuss differences that arise in the    However, the lack of a specific dispute resolution process in the
Enterprises’ administration of HAMP and establish              revised approach increases the risk that disputes among parties
strategies by which to resolve or mitigate them.               will not be resolved efficiently.

Evaluation Report: EVL-2011-003                                                                  Dated: August 12, 2011
TABLE OF CONTENTS
ABBREVIATIONS ........................................................................................................................ 4

PREFACE ....................................................................................................................................... 5

BACKGROUND ............................................................................................................................ 8
   Overview of the Enterprises’ Activities, FHFA’s Conservatorship Authority, and
   Treasury’s Financial Support for the Enterprises ....................................................................... 8
   Overview of Treasury’s MHA Programs .................................................................................. 10
   The Enterprises Administer MHA Programs Such as HAMP on Treasury’s Behalf ............... 11
   Treasury’s Initial FAAs with the Enterprises in 2009 Did Not Define Key Terms,
   Leading to Significant Disputes ................................................................................................ 12
   Treasury, FHFA, and the Enterprises Developed a More Formalized Process in 2010 ........... 14

FINDINGS .................................................................................................................................... 16

CONCLUSIONS........................................................................................................................... 21

RECOMMENDATION ................................................................................................................ 21

SCOPE AND METHODOLOGY ................................................................................................ 22

APPENDIX A ............................................................................................................................... 23
       FHFA’s Comments on Findings and Recommendation ....................................................... 23

APPENDIX B ............................................................................................................................... 25
       FHFA-OIG’s Response to FHFA’s Comments .................................................................... 25

APPENDIX C ............................................................................................................................... 26
       Major FHFA-OIG Contributors to the Evaluation................................................................ 26

ADDITIONAL INFORMATION AND COPIES ........................................................................ 27




             Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                                                       3
ABBREVIATIONS
BOS .................................................................................................. Business Objectives Statement
EESA.................................................................................. Emergency Economic Stabilization Act
FAA.................................................................................................... Financial Agency Agreement
Fannie Mae......................................................................... Federal National Mortgage Association
FHFA ........................................................................................... Federal Housing Finance Agency
FHFA-OIG ...................................... Federal Housing Finance Agency Office of Inspector General
Freddie Mac .................................................................. Federal Home Loan Mortgage Corporation
HAMP ...............................................................................Home Affordable Modification Program
HERA.......................................................................Housing and Economic Recovery Act of 2008
MHA ......................................................................................... Making Home Affordable Program
PSPAs ................................................................................... Preferred Stock Purchase Agreements
TARP .............................................................................................. Troubled Asset Relief Program
Treasury ........................................................................................ U.S. Department of the Treasury




           Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                                                 4
                                     Federal Housing Finance Agency

                                        Office of Inspector General

                                               Washington, DC




                                              PREFACE
FHFA-OIG was established by the Housing and Economic Recovery Act of 2008 (HERA),1
which amended the Inspector General Act of 1978,2 to conduct audits, investigations, and other
activities of the programs and operations of FHFA; to recommend policies that promote
economy and efficiency in the administration of such programs and operations; and to prevent
and detect fraud and abuse in them. This evaluation is one of a series of audits, evaluations, and
special reports published as part of FHFA-OIG’s oversight responsibilities.

Fannie Mae and Freddie Mac are government-sponsored enterprises that support the nation’s
housing finance system. To do so, Fannie Mae and Freddie Mac purchase mortgages from loan
sellers; they can then use the sales proceeds to originate additional mortgages.

In September 2008, due to the Enterprises’ mounting mortgage-related losses, FHFA placed
them into conservatorships. FHFA, as the Enterprises’ conservator and regulator, is responsible
for preserving their assets and minimizing taxpayer losses. At the same time, Treasury agreed to
provide financial support to the Enterprises to help stabilize their financial condition. As of June
30, 2011, Treasury had invested a total of $162.4 billion in the Enterprises.

In February 2009, the Enterprises began participating in Treasury’s MHA Program. MHA is
comprised of several programs, the largest of which is HAMP, a loan modification program.3
Under HAMP, certain borrowers who are delinquent on their mortgages are offered the
opportunity to restructure them. With respect to loans that they own, the Enterprises offer
borrowers the opportunity to participate in HAMP. The Enterprises have also entered into FAAs
with Treasury under which the Enterprises administer some MHA programs. Pursuant to the
FAAs, Fannie Mae administers the implementation of HAMP programs, policies, and
procedures, and Freddie Mac ensures that HAMP participants comply with applicable policies
and procedures.

A number of risks are associated with the Enterprises’ participation in MHA programs. The
Enterprises have noted in their public securities filings that their participation in loan
1
    Public Law No. 110-289.
2
    Public Law No. 95-452.
3
 It was not an objective of this evaluation to analyze the merits or accomplishments of HAMP and other MHA
programs, and FHFA-OIG makes no findings or recommendations regarding them.

            Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                                        5
modification programs exposes them to financial risks, such as the costs associated with
contacting delinquent borrowers and administering loan modifications, as well as the high
potential for borrowers with modified mortgages to re-default on their loans. Moreover, the
Enterprises’ administration of HAMP causes them to incur additional costs and to divert
resources from managing their business operations.

Since the Enterprises’ participation in MHA began, concerns have been raised that Treasury has
employed the Enterprises to manage the MHA program in ways that jeopardizes their financial
stability. Some have questioned whether Treasury adequately consulted with FHFA in the
design and implementation of MHA.

Senator David Vitter requested that FHFA-OIG assess the relationship between FHFA and
Treasury. FHFA-OIG then commenced this evaluation and found:

         No evidence that Treasury’s actions with respect to its MHA programs have
          compromised FHFA’s independence as the Enterprises’ conservator and
          regulator. FHFA has statutory responsibilities under EESA4 to assist
          homeowners to avoid foreclosures and to coordinate within the federal
          government to improve loan modification and restructuring efforts. FHFA
          considers the Enterprises’ participation in HAMP to be consistent with EESA’s
          mandates, as well as a means to limit the credit losses associated with
          foreclosures. Further, FHFA has not permitted the Enterprises to participate in
          other MHA programs that Agency officials believe would jeopardize the
          Enterprises’ financial conditions.

         FHFA could have played a greater role during the negotiation and review of
          Treasury’s FAAs with the Enterprises in 2009. A greater role was appropriate
          because: (1) the FAAs involved five-year commitments by the Enterprises to
          administer efforts to potentially modify millions of delinquent mortgages; and (2)
          the Enterprises’ capacity to meet this administrative responsibility was uncertain
          due to their compromised financial and operational conditions. Despite these
          risks, FHFA largely confined its oversight role to determining whether the
          Enterprises were legally authorized to enter into the FAAs; it did not substantively
          review the agreements’ contents. Additionally, it did not identify key unresolved
          issues, such as the terms under which Treasury would reimburse the Enterprises
          and the scope of administrative work they were expected to perform. As a result,
          throughout 2009 and early 2010, FHFA had to resolve a number of issues
          associated with its inaction: that Treasury did not compensate adequately the
          Enterprises for their work; that the Enterprises were asked to initiate risky and
          costly projects that were outside of the scope of the FAAs; and that the


4
    Public Law No. 110-343.

            Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                                        6
       Enterprises were diverting their limited resources away from higher priority
       projects.

      The revised FAAs establish a more formal administrative process, but do not
       include specific dispute resolution provisions. Since early 2010, Treasury,
       FHFA, and the Enterprises have taken steps to develop a formal process of
       proposing, reviewing, and budgeting new MHA administrative work covered by
       the FAAs. Although the results of these efforts represent a significant
       improvement over the initial FAAs, the revised agreements do not establish
       specific procedures for resolving disputes among the parties. Consequently, a risk
       remains that such disputes will not be resolved efficiently.

In light of these findings, FHFA-OIG recommends that FHFA, Treasury, and the Enterprises
incorporate dispute resolution provisions into the FAAs. FHFA-OIG believes that this
recommendation will result in more economical, effective, and efficient operations.

FHFA-OIG appreciates the assistance of all those who contributed to the preparation of this
report.

This evaluation report has been distributed to Congress, the Office of Management and Budget,
and others and will be posted on FHFA-OIG’s website: www.fhfaoig.gov.




Richard Parker
Deputy Inspector General for Evaluations (Acting)




        Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                                    7
BACKGROUND
Overview of the Enterprises’ Activities, FHFA’s Conservatorship Authority,
and Treasury’s Financial Support for the Enterprises
To fulfill their charter and legislative obligations to provide liquidity to and support for the
mortgage finance system, Fannie Mae and Freddie Mac developed and support what is
commonly known as the secondary mortgage market. In the secondary mortgage market, the
Enterprises purchase mortgages that meet their underwriting criteria from loan sellers such as
banks and other mortgage originators. These loan sellers can use the sales proceeds to originate
additional mortgages. The Enterprises may hold the mortgages that they purchase in their
investment portfolios, or they may securitize them by pooling them into mortgage-backed
securities, which are sold to investors.5

With respect to the mortgages that they purchase and hold, the Enterprises have contractual
relationships with loan servicers, such as mortgage originators or commercial banks, to carry out
key post-origination functions. These functions include providing borrowers with monthly
account statements, handling customer service inquiries, collecting monthly mortgage payments,
administering tax and insurance escrow accounts, and forwarding mortgage payments to the
Enterprises. Additionally, if borrowers fail to make payments according to the terms of their
mortgage notes, the Enterprises’ loan servicers are responsible for initiating loss mitigation
strategies, such as working with delinquent borrowers to modify or restructure their loans.
Ultimately, if a borrower’s ability to repay the mortgage is not restored, then the loan servicer
is responsible for commencing foreclosure proceedings. Foreclosures are generally viewed as
the last step in the loss mitigation process because borrowers lose their homes, and foreclosures
can be costly to lenders and the Enterprises.

On September 6, 2008, due to the Enterprises’ mounting mortgage-related losses, FHFA
employed its authority under HERA to declare them “critically undercapitalized” and placed
them into conservatorships. FHFA’s powers as the Enterprises’ conservator include:

          Taking over the assets of and operating the regulated entity with all the powers of
           the shareholders, directors, and officers of the entity;

          Performing all functions of the regulated entity; and

          Preserving and conserving the assets and property of the regulated entity.6



5
 In exchange for a fee, the Enterprises guarantee that the mortgage-backed securities investors will receive timely
payment of principal and interest on their investments.
6
    See 12 U.S.C. § 4617.

            Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                                          8
On November 24, 2008, FHFA clarified its role as conservator by identifying the activities of the
Enterprises that require FHFA approval. In that regard, FHFA advised that its approval was
required for, among other things:

          Actions involving capital stock, dividends, the Preferred Stock Purchase
           Agreements (PSPAs), an increase in risk limits, material changes in accounting
           policy, and reasonably foreseeable material increases in operational risk; 7 and

          Actions that, in the reasonable business judgment of the Board at the time that the
           action is taken, are likely to cause significant reputational risk.

Later, in July 2009, FHFA further clarified its role by issuing a regulation requiring FHFA pre-
approval of all new products offered by the Enterprises and activities in which they seek to
engage.8

HERA also expanded Treasury’s authority to provide financial support to the Enterprises,9 and in
September 2008, Treasury entered into PSPAs with the Enterprises. The PSPAs provide that,
upon determination by FHFA that an Enterprise’s liabilities exceed its assets, Treasury will
contribute cash capital in an amount equal to the difference and in return will receive preferred
shares.10 Under the PSPAs, Treasury is obligated to provide up to $200 billion through 2012,11
and as of June 30, 2011, Treasury had invested a total of $162.4 billion in the Enterprises.

On October 3, 2008, EESA was enacted. The Act’s purposes include:

          Protection of home values and investments;

          Preservation of homeownership and promotion of jobs and economic growth; and

          Maximization of overall returns to taxpayers.12


7
 “Operational risk can be defined as the risk of monetary losses resulting from inadequate or failed internal
processes, people, and systems or from external events.” See http://www.frbsf.org/publications/eco-
nomics/letter/2002/el2002-02.html.
8
    See 74 Fed. Reg. 31602 (July 2, 2009).
9
    Public Law No. 110-289 § 1117.
10
  Under the agreements, Treasury must consent and/or be consulted before the Enterprises are permitted to take
certain actions including issuing capital stock, terminating conservatorship, increasing debt beyond certain limits,
acquiring or merging into another entity, and entering into executive compensation arrangements.
11
  Treasury Fact Sheet, September 7, 2008; FHFA Mortgage Market Note 10-1, Jan. 20, 2010. Note, however, that
the initial $200 billion limitation was replaced in December 2009 “with a formulaic limit that will automatically
adjust upward quarterly by the amount of any cumulative reduction in net worth over the next three years.” U.S.
Department of the Treasury, Housing Government Sponsored Enterprises Programs at GSE 9 (Feb. 14, 2011)
(online at www.treasury.gov/about/budget-performance/Documents/CJ_FY2012_GSE_508.pdf).
12
     Public Law No. 110-343 § 2.

            Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                                           9
To effectuate these purposes, EESA authorized Treasury to initiate the Troubled Asset Relief
Program (TARP) to purchase and fund commitments to purchase “troubled assets” from
financial institutions.13 Additionally, EESA required that FHFA: implement a plan to maximize
assistance to homeowners; use its authority to encourage the servicers of Fannie Mae and
Freddie Mac mortgages to take advantage of federal programs to minimize foreclosures;
coordinate within the federal government concerning homeowner assistance plans; and submit
monthly reports to Congress detailing the progress of its efforts.14

Overview of Treasury’s MHA Programs
On February 18, 2009, Treasury announced the Homeowner Affordability and Stability Plan
(later referred to as the MHA Program). MHA is one of the Administration’s primary strategies
for addressing the foreclosure crisis. The overall purpose of MHA is to promote stability for
both the housing market and homeowners by providing responsible homeowners with an
opportunity to remain in their homes while they recover financially or relocate to a more
sustainable living situation.

HAMP is a key component of MHA.15 It was launched as an official program of Treasury and
the Department of Housing and Urban Development.16 HAMP is intended to help struggling
homeowners stay in their homes by reducing their monthly mortgage payments to no more than
31% of their pre-tax monthly income. Under HAMP, participating loan servicers are required to
identify and communicate with delinquent borrowers who meet the program’s guidelines.17 To
reduce these borrowers’ mortgage payments, servicers may modify their loans by lowering the
interest rates, extending the amortization periods, or forbearing principal. Servicers may receive
incentive payments for completed permanent modifications. According to Treasury officials, the




13
  Public Law No. 110-343 § 101. EESA defines “troubled assets” to include “any financial instrument that the
Secretary ... determines the purchase of which is necessary to promote financial market stability.” Id. at § 3.
14
     Public Law No. 110-343 § 110.
15
  Prior to EESA’s enactment in October 2008, FHFA and the Enterprises had already established programs to assist
borrowers who were unable to meet their monthly mortgage obligations. These programs provided for, among other
things, repayment plans, forbearance arrangements, short-sales, third-party sales, and deeds-in-lieu of foreclosure.
Additionally, prior to HAMP, FHFA and the Enterprises had devoted substantial resources to the joint development
of the Streamlined Modification Program. It was rolled-out by FHFA and the Enterprises in November 2008.
However, once it became clear that the Administration was going to launch HAMP, FHFA and the Enterprises
turned their attention to that program’s development and implementation.
16
  Another MHA program, the Home Affordable Refinance Program (HARP), was launched at the same time as
HAMP. HARP is designed to assist underwater homeowners with Enterprise-owned loans to refinance them with a
lower market-rate mortgage loan. HARP refinancing is not within the scope of this report.
17
 Servicers, for example, may receive $1,000 for each completed modification, an additional $500 if the
modification is for a borrower who is not yet delinquent, and an additional $1,000 annually for up to five years if the
modified loan performs well.

            Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                                          10
program was initially intended to offer reduced monthly payments to up to 3 to 4 million
homeowners who were delinquent or at risk of becoming delinquent on their mortgages.18

HAMP applies to mortgages that the Enterprises own or guarantee, as well as to participating
servicers’ non-Enterprise mortgages that meet the program’s criteria (see Figure 1). The
Enterprises’ mortgage servicers are generally responsible for contacting eligible borrowers and
arranging loan modifications with them. Likewise, participating servicers may also make HAMP
modifications to mortgages they administer but that are not owned or guaranteed by the
Enterprises, such as subprime mortgages, which typically do not meet the Enterprises’
underwriting criteria.

Figure 1: Break-out of Enterprise and Non-Enterprise HAMP Permanent Mortgage Loan
          Modifications19




                                                                           Enterprises
                                                                           Non-Enterprises




The Enterprises Administer MHA Programs Such as HAMP on Treasury’s
Behalf
EESA provides a statutory basis for Treasury to contract with financial institutions such as the
Enterprises to facilitate the implementation of TARP/MHA programs. Specifically, EESA
authorizes Treasury to designate a financial institution as a “financial agent” to perform “all
reasonable duties as may be required” to fulfill its duties under EESA.20

Treasury selected the Enterprises to administer HAMP and certain other MHA programs.
Together the Enterprises own or guarantee approximately 60% of the U.S. residential mortgage
loan market. Treasury’s decision was premised on the fact that they have extensive existing
18
  See Homeowner Affordability and Stability Fact Sheet, Feb. 18, 2009, http://www.treasury.gov/press-center/press-
releases/Pages/20092181117388144.aspx. Thus far, however, HAMP has resulted in far fewer loan modifications
than initially anticipated.
19
  Through June 30, 2011, there were 763,071 permanent HAMP loan modifications. Fannie Mae and Freddie Mac
together owned 408,958 of the modified loans, and the remaining 354,113 modified loans were owned by entities
other than the Enterprises.
20
     Public Law No. 110-343 § 101(c)(3).

            Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                                        11
relationships with the financial institutions that service their mortgages. Further, the Enterprises
have the personnel, information systems, and other infrastructure necessary to the daily
functioning of the housing finance system.

On February 18, 2009, Treasury entered into FAAs with the Enterprises, giving them a central
role in executing and administering many of Treasury’s MHA-related objectives.21 Fannie Mae
acts as the program administrator for all mortgage servicers, lenders, and financial institutions
that participate in HAMP. Fannie Mae’s specific responsibilities include: implementing
program policies and guidelines; serving as record keeper for executed modifications and
program administration; and coordinating with Treasury and other parties on developments
aimed at achieving programmatic goals. Additionally, Fannie Mae provides information and
resources to servicers to assist them in implementing the program and helping distressed
borrowers. To fulfill its role as program administrator, Fannie Mae has established a Program
Management Office and dedicated other resources to the support of the program.

Freddie Mac is responsible for ensuring that all mortgage servicers and other financial
institutions that participate in HAMP comply with their obligations under the HAMP Servicer
Participation Agreements. Freddie Mac’s specific compliance activities include reviewing the
effectiveness of servicers’ recruitment of eligible borrowers for HAMP and ensuring that
servicers do not improperly deny eligible borrowers the opportunity to participate in the
programs. In addition, Treasury requested that Freddie Mac develop a “second look” process
pursuant to which it audits a sample of HAMP modification requests to assess the quality of
servicer decisions. Freddie Mac has established a separate division to conduct its compliance
activities, Making Home Affordable-Compliance.

Treasury’s Initial FAAs with the Enterprises in 2009 Did Not Define Key
Terms, Leading to Significant Disputes
Although the FAAs established essential responsibilities for the Enterprises in administering
HAMP, the agreements leave critical terms undefined. As a result, FHFA and Treasury
subsequently engaged in a series of disputes regarding the amount of Treasury’s reimbursement
of the Enterprises as well as the scope of the work that Treasury expected them to perform. As
described later in this report, FHFA’s lack of involvement in and oversight of the Enterprises’
negotiations with Treasury concerning the FAAs in early 2009 likely contributed to these
challenges.

Fannie Mae’s FAA with Treasury lacks specificity as to the work Treasury expected the
Enterprise to perform in its role as HAMP’s administrator. For example, Fannie Mae’s FAA
states that the services it is to provide are “described in Exhibits A and C” of the agreement.
21
  Since EESA, Treasury has entered into 14 FAAs with private entities. Fannie Mae and Freddie Mac’s agreements
are the largest, worth $160,271,050.00 and $111,956,539.59, respectively. See U.S. Department of Treasury,
Listing of Financial Agreements (online at www.treasury.gov/initiatives/financialstability/procure-
ment/faa/Pages/faa.aspx).

         Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                                     12
Exhibit A provides a general description of work Fannie Mae is obligated to perform to assist
Treasury in designing and executing mortgage modification programs, including such things as
developing a marketing plan, customer service call center, and standardized documentation.
Exhibit C, however, which was entitled “Program Guidelines” and was to describe the loan
modification programs to be implemented, was left blank except for the phrase “To Be Issued by
the Treasury.” Freddie Mac’s FAA as the HAMP compliance agent is structured in the same
incomplete manner. As described later in this report, the lack of detail in Exhibit C, combined
with FHFA’s lack of oversight of the negotiations of the FAAs, led to substantial avoidable
conflict.

The FAAs are also vague with respect to the terms under which Treasury will reimburse (or
compensate) the Enterprises for their efforts. Both FAAs include a section on compensation and
refer to payment “in accordance with Exhibit B, as amended from time to time.” Exhibit B,
entitled “Budget, Funding, and Compensation” contains broad cost categories to be used in
computing the program budget (i.e., personnel compensation, travel, information technology,
etc.); a general description of reimbursement on a monthly basis; and a routine provision for
performance incentive payments. Neither the text of the FAAs nor Exhibit B, however, address
the rate at which the Enterprises may be compensated for their work, the propriety of using
TARP funds for that purpose, or whether work relative to loans owned or guaranteed by the
Enterprises is eligible for reimbursement.

Moreover, the FAAs were not substantively reviewed by FHFA, and FHFA is not a party to the
agreements. Neither of the FAAs acknowledge FHFA’s role as the Enterprises’ conservator and
regulator, nor do they reflect that the Enterprises are required to seek and obtain approval from
FHFA before engaging in many activities.

As a likely consequence of the FAAs’ lack of specificity, significant disputes developed
throughout 2009 and early 2010 regarding the Enterprises’ reimbursement and the appropriate
scope of their work. Examples of these disputes include:

      Enterprise Cost Reimbursement. FHFA and Treasury engaged in a dispute
       over the reimbursement of the Enterprises for costs associated with administering
       the HAMP program with respect to loans that they owned or guaranteed. From
       the beginning, FHFA and the Enterprises operated under the assumption that
       Treasury had agreed to reimburse the Enterprises for the full costs associated with
       administering HAMP without differentiation between mortgages the Enterprises
       owned or guaranteed and all other mortgages. Conversely, Treasury took the
       position that TARP funds could not be used to reimburse the Enterprises for loans
       they owned or guaranteed. In support of the Enterprises, FHFA’s Acting Director
       wrote two letters to Treasury contesting Treasury’s decision not to reimburse fully
       the Enterprises. In letters dated December 1, 2009, and February 22, 2010, the
       Acting Director pointed to the absence of specific statements regarding the scope
       of work and operating budgets in the FAAs. He added that HAMP created

        Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                                    13
       operational risks for the Enterprises and diverted staff and resources from other
       critical priorities. Nevertheless, the position of Treasury – which controlled the
       purse strings – prevailed, and the Enterprises have not been reimbursed for work
       related to mortgages they own or guarantee that have gone through the HAMP
       programs.

      Website Development. FHFA and Treasury also engaged in a significant dispute
       over Treasury’s request in November 2009 that Fannie Mae develop an Internet
       website associated with HAMP. As envisioned by Treasury, the website would
       provide borrowers with assistance in completing HAMP-related documents and
       submitting them to their loan servicers. However, officials in FHFA’s Office of
       Conservatorship Operations opined that Fannie Mae lacked the in-house expertise
       to complete the project, and they also raised operational and cost-based
       objections. Ultimately, Treasury agreed to remove Fannie Mae from the website
       development project.

Treasury, FHFA, and the Enterprises Developed a More Formalized Process
in 2010
In an effort to limit further controversies, Treasury, FHFA, and the Enterprises took steps to
develop a more formalized process to address disputes surrounding the Enterprises’ roles as
HAMP administrators. In February 2010, Treasury initiated use of the Business Objectives
Statement (BOS) process. The BOS process was developed jointly by Treasury, FHFA, and the
Enterprises, and is designed to facilitate review and planning of additional MHA program
initiatives. It has since been formalized and included in an amendment to Fannie Mae’s FAA,
which was executed on February 10, 2011. A similar amendment to Freddie Mac’s agreement is
being finalized and adoption is expected shortly.

The BOS process begins with a letter prepared by Treasury and transmitted to one or both of the
Enterprises when a new or modified business need arises. The BOS letter identifies: (1) the
program outcome that Treasury seeks to achieve, along with related high-level business
requirements; and (2) the information that each Enterprise must include in a “Project
Authorization Package” that is required to be provided to Treasury after considering the BOS
letter.

The Project Authorization Packages prepared by the Enterprises, in turn, provide Treasury
with: (1) project overview and cost estimates; (2) a statement of the budgetary impact on the
Enterprises’ established and forecasted budgets; (3) an identification of any resource concerns
related to organizational capacity or operations, or to financial condition or non-MHA operations
of the Enterprises; and (4) an analysis of whether the Enterprises’ proposed solution is within the
scope of the current FAA. Based on this information, Treasury decides whether to authorize an
Enterprise to proceed with the new project.


        Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                                    14
While its role is not mentioned in Fannie Mae’s amended FAA, FHFA is supervising the
Enterprises’ participation in the BOS process. FHFA receives a copy of each BOS letter at the
time it is sent by Treasury to the Enterprises; and each Enterprise is required to submit its draft
Project Authorization Packages to FHFA for review and approval before sending it to Treasury.
FHFA prohibits the Enterprises from beginning work or incurring any expenses prior to Treasury
authorizing the project and validating the budget.

The BOS process represents an improvement over the initial FAAs. Since the BOS process
commenced, approximately 25 BOS letters have been issued by Treasury. Some of those letters
have been closed or withdrawn without action by the Enterprises, and others have progressed
through the Project Authorization Package stage to approval and performance.

Although the BOS process represents an improvement over the initial FAAs, Fannie Mae’s
revised agreement does not include a specific dispute resolution process for situations in which
Treasury and the Enterprise cannot resolve their differences. As discussed later in this
evaluation report, the lack of a specific dispute resolution process in the revised approach
increases the risk that disputes among parties will not be resolved efficiently.




        Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                                    15
FINDINGS
On the basis of the foregoing record and interviews with FHFA and Enterprise officials, as well
as reviews of relevant Agency documents, FHFA-OIG finds:

     1. No evidence that in developing and implementing HAMP Treasury has
        compromised FHFA’s independence as the Enterprises’ conservator and regulator.
        EESA requires FHFA to coordinate within the federal government in the development
        and implementation of loan modification programs such as HAMP. FHFA has supported
        HAMP as a means to limit the Enterprises’ credit losses by minimizing costly
        foreclosures. At the same time, FHFA has exhibited independence by prohibiting the
        Enterprises from participating in other MHA programs that it views as being inconsistent
        with their financial soundness.

     2. FHFA could have played a greater role during the negotiation and review of
        Treasury’s FAAs with the Enterprises in 2009. A greater role was appropriate because
        the FAAs represent long-term commitments of substantial resources at a time when there
        were substantial concerns about the Enterprises’ financial and operational capacity.
        Nevertheless, FHFA did not review the substance of the FAAs prior to their finalization.
        Instead, FHFA confined its review to ensuring that the Enterprises were legally
        authorized to enter into the FAAs. By not reviewing the substance of the FAAs, FHFA
        failed to appreciate the impact of leaving key terms undefined.

     3. The revised FAAs establish a more formal administrative process, but do not
        include specific dispute resolution provisions. In early 2010, Treasury, FHFA, and the
        Enterprises developed the BOS process, which represents a significant improvement over
        the initial FAAs. However, the lack of a specific dispute resolution process in the revised
        approach increases the risk that disputes among parties will not be resolved efficiently.

As a consequence of these findings, FHFA-OIG recommends that FHFA seek agreement among
Treasury and the Enterprises to further amend the FAAs by including within them a specific
dispute resolution process. In doing so, FHFA should look to well-established procedures within
the federal government related to the management of intergovernmental business disputes,
especially those that contain time limits for identifying disputes, use of a specified deciding
body, and requirements for documentation of the reasoning behind an agency’s disputed
position.22 The inclusion of such a process within the FAAs would permit the parties to discuss


22
  For example, the Office of Management and Budget directs federal agencies to follow “Business Rules for Intra-
governmental Transactions” that have been developed collaboratively by the Office of Management and Budget and
Treasury. Memorandum for the Heads of Departments and Agencies, Rob Portman, Nov. 13, 2006. The Treasury
Financial Manual on Intra-governmental Business Rules provides specific guidance and requirements for resolving
intra-governmental disputes and major differences. See Treasury Financial Manual, Bulletin Nos. 2007-03 and
2011-04.

          Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                                      16
fully the basis of any dispute between them, weigh the pros and cons of alternative courses of
action, and seek consensus short of initiating potentially costly litigation.

1. No Evidence that in Developing and Implementing HAMP Treasury Has Compromised
   FHFA’s Independence as the Enterprises’ Conservator and Regulator

EESA requires FHFA to implement a plan to maximize assistance to homeowners and use its
authority to encourage Fannie Mae’s and Freddie Mac’s mortgage servicers to take advantage of
federal programs to minimize foreclosures. In addition, EESA requires FHFA to coordinate
within the federal government concerning homeowner assistance plans. Since HAMP’s
inception in early 2009, FHFA has supported the Enterprises’ participation in the program and
views their participation as being consistent with the Agency’s responsibilities under EESA and
as a means to limit the Enterprises’ credit risk exposure. The Enterprises’ loan portfolios contain
significant numbers of mortgages at risk of entering foreclosure thereby causing further losses to
the Enterprises. But, FHFA believes that such losses can be reduced if the loans at risk can be
modified through HAMP.

In the course of this evaluation, FHFA-OIG staff, who interviewed FHFA and Enterprise
officials and reviewed e-mails and documents, did not identify any evidence suggesting that
FHFA’s internal views about the Enterprises’ participation in HAMP are inconsistent with the
Agency’s public statements of support for the Enterprises’ participation. Rather, information
compiled by FHFA-OIG confirms that FHFA’s private views and public assertions were
consistent.

FHFA-OIG also notes that FHFA has demonstrated its independence in connection with the
Enterprises’ participation in Treasury’s MHA. Specifically, FHFA has not permitted the
Enterprises to participate in some MHA programs that the Agency views as unacceptable credit
risks. For example, on January 31, 2011, FHFA formally notified Treasury of its refusal to
permit the Enterprises to participate in both the HAMP Principal Reduction Alternative and the
Department of Housing and Urban Development’s Short Refinance programs with respect to
loans that they own or guarantee.23 The HAMP Principal Reduction program, which is currently
in effect for non-Enterprise loans, requires servicers to consider HAMP-eligible borrowers with
greater than a 115% loan-to-value ratio for reduction of the loan’s unpaid principal balance.
Similarly, the Short Refinance program offers underwater borrowers who are current on their
mortgages the opportunity to refinance their mortgage with a write-off or debt-forgiveness of at
least 10% of the unpaid principal balance. FHFA concluded that it would be imprudent for the
Enterprises to participate in either program, claiming that a very small percentage of their
borrowers would qualify and the programs carry significant costs for the Enterprises.




23
  It was not an objective of this evaluation to analyze the merits of principal reduction programs or their potential
applicability to the Enterprises, and FHFA-OIG makes no findings or recommendations regarding these topics.

          Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                                          17
2. FHFA Could Have Played a Greater Role During the Negotiation and Review of
   Treasury’s FAAs with the Enterprises in 2009

According to FHFA and Enterprise officials, as well as Agency internal documents, the initial
FAAs were negotiated in early 2009 under tight time constraints and great pressure to respond to
the housing crisis. These factors may have contributed to the parties leaving key provisions of
the FAAs, such as cost reimbursement guidelines, undefined.

FHFA-OIG has determined that FHFA largely removed itself from the oversight of the
negotiation of the FAAs. FHFA believed that its appropriate role was to ensure that the
Enterprises were legally authorized to administer MHA, and not to participate actively in the
negotiations between the Enterprises and Treasury. Thus, FHFA did not engage in any formal
substantive review designed to evaluate the FAAs’ feasibility, risks, or the suitability of the
Enterprises to serve as Treasury’s financial agents. This lack of engagement may have
contributed to the FAAs’ omission of significant details concerning payments to the Enterprises
and the scope of the Enterprises’ responsibilities. FHFA cannot ensure that the assets of the
Enterprises are conserved and preserved if it does not exercise due diligence by substantively
reviewing significant Enterprise contracts such as the FAAs.

FHFA’s General Counsel informed FHFA-OIG that members of his staff limited their review of
the FAAs in early 2009 to determining whether, under the Enterprises’ charters and authorizing
legislation, they were authorized to serve as financial agents for Treasury. In a memorandum to
FHFA-OIG, the General Counsel stated that the Office of General Counsel’s role:

        was to consider the legal foundations for an agent role for the Enterprises; it is spelled out
        in their charters. After that, discussions occurred between the Treasury Department and
        the Enterprises on the contours of the Financial Agency Agreements. At their
        conclusion, FHFA indicated that it did not object to the entry into Agreements and that
        this was founded in law.

To that end, on February 18, 2009, FHFA’s Director sent letters to Fannie Mae and Freddie Mac
stating that it had reviewed the FAAs under which the Enterprises would act as Treasury’s
financial agents for MHA; FHFA agreed that it was an appropriate exercise of each Enterprise’s
authority and consistent with their existing activities, and the activities to be performed by the
Enterprises did not constitute a “new product” offering that required FHFA approval.24 The
24
   FHFA’s assertion that its approval was unnecessary because a “new product” was not involved missed the point.
First, the February 18 letter constituted FHFA’s approval of the Enterprises’ services as financial agents for
Treasury. Second, although the “new product” pre-approval requirement may not have been applicable to the FAAs,
other FHFA requirements may have implicated FHFA’s pre-approval restrictions. For example, FHFA’s February
18 letter does not contain an evaluation of whether the Agency’s approval was required because of the operational
risks that the Enterprises would assume under the FAAs. The Enterprises’ exposure to such risks as a consequence
of their duties as financial agents under the FAAs was noted by FHFA’s Acting Director in his February 22, 2011,
letter to Treasury. Third, the question that FHFA should have considered was whether a more substantive review of
the FAAs could have improved the substance of the agreements and, thereby, furthered the interests of the
Enterprises and the taxpayers who support them.

          Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                                       18
FHFA Acting Director added that he considered the activities the Enterprises would undertake as
financial agents supporting Treasury’s mortgage relief efforts to be consistent with their charters
and existing business practices.

FHFA-OIG considers FHFA’s lack of involvement in the negotiations leading up to the initial
execution of the FAAs to be inconsistent with its role as the Enterprises’ conservator.25 FHFA is
authorized to preserve and conserve the assets of the Enterprises, and it has reserved to itself the
right to preapprove most of the Enterprises’ non-routine activities. Nonetheless, without FHFA
having substantively reviewed the FAAs, the Enterprises committed to administer, for a five-year
period, a program that was expected to assist millions of borrowers in modifying their mortgages
or otherwise avoiding foreclosures. At the time, the Enterprises were in the early stages of the
conservatorships that saved them from financial collapse, and there was no certainty that they
would be able to effectuate their new administrative responsibilities.

At a minimum, FHFA had a responsibility to monitor closely the negotiations and review the
final FAAs in detail to ensure their feasibility and assess their likely impact on the Enterprises.
Even a cursory review would have raised significant questions about the omission from the
FAAs of details concerning key terms, such as reimbursement for work related to Enterprise
owned or guaranteed mortgages. The initial FAAs did not specify the extent to which Treasury
would use TARP funds to reimburse the Enterprises for their administrative activities or whether
the reimbursement would cover Enterprise owned or guaranteed loans. That omission later
became a cause of significant controversy when Treasury refused to use TARP funds to
reimburse the Enterprises for HAMP program administration costs covering mortgages they own
or guarantee.

Similarly, the initial FAAs were devoid of detail regarding the activities that the Enterprises were
expected to administer despite the fact that an outline of what the HAMP program would entail
was then available. In the period following the execution of the FAAs, the Enterprises were
repeatedly presented with new project proposals from Treasury that FHFA considered to be
unduly burdensome. FHFA-OIG finds that the potential for FHFA to avoid disputes over
compensation and the scope of the Enterprises’ work existed at the time that the FAAs were
being negotiated. FHFA did not exploit that potential by playing a more proactive role in the
initial FAA negotiation and review processes.

3. The Revised FAAs Establish a More Formal Administrative Process, But Do Not
   Include Specific Dispute Resolution Provisions

Beginning in 2010, Treasury, FHFA, and the Enterprises established the BOS process to guide
new administrative work that Treasury expects the Enterprises to perform. The BOS process
helps ensure that Treasury has clearly articulated new program requirements. It also ensures that
25
  FHFA-OIG notes that shortly after the FAAs were executed on February 18, 2009, FHFA assigned an OGC staff
member to monitor the FAAs and participate in negotiations with the Enterprises and Treasury regarding billing,
new work requests, and drafting amendments to the FAAs.

          Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                                       19
the Enterprises have assessed whether they can meet those needs, as well as the impact that such
potential new work may have on their existing operations. Finally, the BOS process also helps
ensure that FHFA is provided with an opportunity to review Treasury’s proposals, and that all
parties have reached agreement on allowable costs in performing the new work.26

Although the BOS process represents a significant improvement over the initial FAAs, it does
not contain robust dispute resolution procedures. Rather, the limited “Disputes” paragraph in the
initial FAAs continues to provide the only mechanism by which to resolve potential conflicts
among Treasury, FHFA, and the Enterprises. That paragraph merely states that it is in the
parties’ “mutual interests to resolve disputes by agreement,” and that disputes that cannot be
resolved informally shall be referred up through each party’s chain of command. It does not set
forth a process by which the parties may resolve such continuing disagreements. Ultimately, the
dispute language in the FAAs relies on the parties’ reservation of rights to pursue any legal and
equitable claims they may have through litigation or other means. FHFA-OIG finds that the lack
of a specific dispute resolution process in the revised approach increases the risk that disputes
among parties will not be resolved efficiently.




26
  Although Treasury and Fannie Mae formally amended their FAA to incorporate the BOS process in February
2011, Freddie Mac does not yet have an amendment to its FAA in place as of the date of this report. Nonetheless,
FHFA reported to FHFA-OIG that Treasury has been following the BOS process for both Enterprises even though
the relevant amendments to Freddie Mac’s FAA have not been finalized.

          Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                                       20
CONCLUSIONS
FHFA-OIG has not identified any evidence to suggest that the development and implementation
of Treasury’s MHA program has compromised FHFA’s independence as the Enterprises’
conservator and regulator. FHFA has supported the Enterprises’ participation in HAMP as a
means to mitigate foreclosures and credit losses, and the Agency has not permitted the
Enterprises to participate in other MHA initiatives that it views as potentially presenting
unreasonable financial risks. On the other hand, FHFA could have played a greater role in the
negotiation and review of the initial FAAs between Treasury and the Enterprises. By not
monitoring the negotiations or substantively reviewing and approving the final FAAs, FHFA did
not ensure that the Enterprises’ valuable resources were conserved and preserved. Consequently,
FHFA, Treasury, and the Enterprises committed valuable resources to the resolution of disputes
arising from ambiguities in the initial FAAs that potentially could have been avoided.

To their credit, Treasury, FHFA, and the Enterprises established the BOS process in early 2010
to address some of the weaknesses of the FAAs. However, the lack of specific dispute resolution
provisions in the revised agreements increases the risk that disputes among parties will not be
resolved efficiently.



RECOMMENDATION
To ensure that FHFA meets its conservatorship obligations to protect the Enterprises from
expending unbudgeted funds or being tasked by Treasury to perform work that is beyond the
scope of the FAAs or the Enterprises’ capabilities, FHFA-OIG recommends that FHFA engage
in negotiations with Treasury and the Enterprises to amend the FAAs to incorporate specific
dispute resolution provisions under which the parties discuss such disputes and establish a
strategy to resolve or mitigate them.




        Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                                    21
SCOPE AND METHODOLOGY
The objective of this evaluation was to assess the relationship between FHFA and Treasury in
the context of FHFA’s oversight of the Enterprises’ participation in MHA. To gain an
understanding of this relationship, FHFA-OIG conducted a range of interviews with FHFA staff
and senior officials. In particular, FHFA-OIG interviewed Office of Conservatorship Operations
personnel and Office of General Counsel staff. FHFA-OIG also interviewed employees of
Fannie Mae and Freddie Mac who were responsible for negotiating the FAAs with Treasury and
leading the Enterprises’ MHA work. Some individuals were interviewed more than once.

FHFA-OIG also requested that FHFA, Fannie Mae, and Freddie Mac provide documentation
related to their communications with Treasury. FHFA-OIG reviewed all the documentation
provided by FHFA and the Enterprises and examined other documents in the public domain
including materials on FHFA’s website; SEC filings; information posted on Fannie Mae’s,
Freddie Mac’s, and the MHA’s websites; and data supplied by Treasury’s Office of Financial
Stability, which administers TARP programs.

This evaluation was conducted under the authority of the Inspector General Act and in
accordance with the Quality Standards for Inspection and Evaluation (January 2011), which was
promulgated by the Council of Inspectors General on Integrity and Efficiency. These standards
require FHFA-OIG to plan and perform an evaluation that obtains evidence sufficient to provide
reasonable bases to support the findings and recommendation made herein. FHFA-OIG trusts
that the findings and recommendation discussed in this report meet these standards.

The performance period for this evaluation was from December 2010 to June 2011.

FHFA-OIG provided FHFA staff with briefings and presentations concerning the results of its
fieldwork, and provided FHFA with an opportunity to respond to a draft report of this evaluation.
FHFA’s comments on FHFA-OIG’s draft report are reprinted in their entirety at Appendix A.

FHFA-OIG appreciates the efforts of FHFA, Fannie Mae, and Freddie Mac management and
staff in providing information and access to necessary documents to accomplish this evaluation.

Appendix C identifies major FHFA-OIG contributors to this evaluation.




        Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                                    22
APPENDIX A
FHFA’S Comments on Findings and Recommendation




      Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                                  23
Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                            24
APPENDIX B
FHFA-OIG’S Response to FHFA’S Comments
FHFA-OIG provided a draft of this evaluation to FHFA for its review and comment. On July 27,
2011, a Senior Associate Director of the Office of Housing and Regulatory Policy provided the
Agency’s written comments, which are published verbatim in Appendix A. In them, FHFA
agreed to:

   1. Engage each of the Enterprises and Treasury in discussions aimed at establishing more
      specific dispute resolution procedures;

   2. Look to existing models for dispute resolution procedures currently existing within the
      federal government that address, among other things, time limits for identifying disputes,
      use of a specified deciding body, and requirements for documentation of the reasoning
      behind an agency’s disputed position; and

   3. Complete this work by December 31, 2011.

In its written comments, FHFA states that gaps in the original FAAs relating to compensation
and the programs to be implemented were purposeful; FHFA expected that negotiations would
continue; and that significant amendments to the FAAs would follow. FHFA also stated that, as
executed, the FAAs were not considered to be finalized documents. Finally, FHFA makes the
point that its Office of General Counsel reviewed the FAAs, discussed them with the Enterprises,
analyzed the authority to enter into them, and considered whether the Enterprises were legally
required to obtain FHFA’s approval to undertake the duties described in them.

As set forth in the body of this Evaluation Report, FHFA’s review of the initial FAAs was
limited. It did not encompass key terms of the agreements, such as the scope of the work to be
performed by the Enterprises and the terms under which they would be compensated.
Significant problems developed in both of these areas almost from the beginning, causing FHFA
and the Enterprises to divert significant resources to their resolution and away from other
priorities. Consequently, FHFA-OIG continues to believe that FHFA’s conservatorship interests
would have been better served had FHFA taken a more expansive view of its role in the
negotiation and review of the FAAs. Moreover, FHFA-OIG’s concerns are not mitigated by the
prospect that deficiencies in the FAAs – and the resulting controversies that stemmed from them
– were intentional as opposed to the product of insufficient substantive review. The outcome
was the same: diversion of significant resources.




        Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                                    25
APPENDIX C
Major FHFA-OIG Contributors to the Evaluation
Angela Choy
Emilia DiSanto
Adrienne Freeman
George Grob
Bruce McWilliams
Wesley M. Phillips
Alan Rhinesmith
Laurel Loomis Rimon
David Z. Seide




        Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                                    26
ADDITIONAL INFORMATION AND COPIES

For additional copies of this report:

      Call the Office of Inspector General (OIG) at: 202-408-2544

      Fax your request to: 202-445-2075

      Visit the OIG website at: www.fhfaoig.gov



To report alleged fraud, waste, abuse, mismanagement, or any other kind of criminal or
noncriminal misconduct relative to FHFA’s programs or operations:

      Call our Hotline at: 1-800-793-7724

      Fax us the complaint directly to: 202-445-2075

      E-mail us at: oighotline@fhfa.gov

      Write to us at: FHFA Office of Inspector General
                       Attn: Office of Investigation – Hotline
                       1625 Eye Street, NW
                       Washington, DC 20006-4001




         Federal Housing Finance Agency Office of Inspector General • EVL-2011-003 • August 12, 2011
                                                     27
